U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 12, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Philip N. Antico v. United States of America,
S.Ct. No. 19-906

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 21,
2020, and placed on the docket on January 22, 2020. The government's response is due on
February 21, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 23, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0906
ANTICO, PHILIP N.
USA

NICOLE NICOLETTE MACE
THE LAW OFFICE OF CURT SANCHEZ, PA
330 CLEMATIS STREET
SUITE 209
WEST PALM BEACH, FL 33401
561-758-5407
NICOLE@NICOLENICOLETTELAW.COM

